           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



     TAX INFORMATION RELATED
      TO THE SOCIAL SECURITY
   ADMINISTRATION’S CONTRACTORS

   September 2005   A-03-05-25010




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office
                                         SOCIAL SECURITY

MEMORANDUM

Date:   September 23, 2005                                                               Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Tax Information Related to the Social Security Administration’s Contractors
        (A-03-05-25010)


        OBJECTIVE
        Our objectives were to determine whether (1) the Social Security Administration (SSA)
        is adequately screening contractors during the pre-award and registration process and
        (2) Agency contractors are appropriately paying payroll taxes.

        BACKGROUND
        As of August 2004, SSA had about 4,600 active contracts worth more than $1.4 billion.1
        These contracts were awarded to 3,097 contractors who provided a variety of goods
        and services including medical, worker rehabilitation, consulting, auditing, and
        verification services.

                              Table 1: SSA Active Contracts (as of August 2004)
            Contract Amount          Contract Amount         Number of       Percentage of       Total Award
             Greater Than          Less Than or Equal to     Contracts      Total Contracts       Obligation
                     $         0             $    10,000        3,006               65.2%            $4M
                          10,000                  50,000          611               13.3%            15 M
                          50,000                 100,000          350                7.6%            26 M
                         100,000                 500,000          426                9.3%            98 M
                         500,000                     1M            66                1.4%            45 M
                             1M                     10 M          119                2.6%           369 M
                            10 M                    25 M           20                0.4%           320 M
                            25 M                   250 M            9                0.2%           548 M
            Totals                                              4,607              100.0%        $1,425 M



        1
         These numbers represent all contracts awarded by SSA, with the exception of some micro-purchases
        made by regional contracting officers who are not required to enter micro-purchases into the Office of
        Acquisition and Grant’s database. The total includes original contract awards as well as modifications,
        delivery orders, blanket purchase agreements, task orders, and some micro-purchases.
Page 2 – The Commissioner

In October 2003, the Federal Acquisition Regulations (FAR) made it a requirement for
all contractors doing business with any Federal agency to register in the Department of
Defense’s (DoD) Central Contractor Registration (CCR) database, with a few
exceptions.2 The objectives of the CCR database are to: (1) increase visibility of
contractor sources (including their geographical locations) for specific supplies and
services and (2) establish a common source for Government contractor data.3 The
CCR collects, validates, stores, and disseminates data in support of an agency’s
acquisition mission.

Our audit focused on active SSA contracts as of August 2004. Specifically, we
reviewed and assessed SSA procedures for determining whether its contractors were
complying with the FAR as it relates to CCR registration and providing tax-related
information. Further, to determine if SSA contractors were appropriately paying their
payroll taxes, we assessed whether the contractors reported the correct amount of
Social Security wages to SSA and the Internal Revenue Service (IRS). We provide
information on our scope and methodology in Appendix C. The entities audited were
SSA’s Office of Acquisition and Grants (OAG) and Office of Financial Policy and
Operations (OFPO) under the Deputy Commissioner for Finance, Assessment and
Management (DCFAM). We conducted our audit in Baltimore, Maryland between June
2004 and April 2005 in accordance with generally accepted government auditing
standards.

RESULTS OF REVIEW
Our review found that some SSA contractors were not registered in CCR. Specifically,
we found that 19 of 100 sample contractors were not registered in the CCR as required.
In four of these cases, SSA awarded new contracts without ensuring the contractors
were registered. Further, we found that contractors’ Tax Identification Numbers (TIN)4
included in SSA’s acquisition database were not accurate. Specifically, we found that
as many as 5 percent of the TINs were either invalid or could not be validated in SSA
records. Finally, while we found discrepancies with contractors reporting payroll data to
SSA and the IRS, we were not able to confirm if these contractors were tax delinquent
due to the restrictions of the Internal Revenue Code, which prevents the disclosure of
certain tax-related information.




2
  48 Code of Federal Regulations (C.F.R.) Subpart 4.11—Central Contractor Registration. See Appendix
B for more background information on the CCR requirement.
3
  Id. Contractor data includes basic information relevant to procurement and financial transactions such
as contractor name, address, points of contact, electronic payment information, and tax identification
number. Complete guidance on the registration process may be found at www.ccr.gov.
4
  A TIN is an Employer Identification Number (EIN) issued by the IRS or a Social Security number (SSN)
issued by SSA.
Page 3 – The Commissioner

CENTRAL CONTRACTOR REGISTRATION

In our review of 100 sample SSA contractors, we identified 19 contractors who were not
registered in the CCR database.5 In four of these cases, SSA awarded new contracts
prior to verifying that the contractors were registered. Of the remaining 81 contractors,
74 were registered in CCR and 7 were exempt from registration.

In the 1990s, DoD established the CCR database to be a single repository of contractor
financial and procurement data for the entire DoD to avoid administrative duplication
and allow contractors to take responsibility for the accuracy of their own important
business information by supplying it directly to the Government through a single
registration process.6 In October 2003, the FAR made it a requirement for all potential
Government contractors to register in the CCR database to be awarded contracts by the
Federal Government.7 Further, it required that existing Government contractors—with
awards prior to October 1, 2003—register, if their period of performance extended
beyond December 31, 2003.

Of the 19 contractors that had not registered in the CCR database as appropriate,8
4 were new contractors and 15 were existing contractors (see Figure 1).

                Figure 1: Registration of SSA Contractors in CCR
                                 100 Contractors
                                                    New contractors who were not
          15                                        registered prior to award
                                                    Existing contractors who were not
                                                    registered
        4                                           Contractors who were registered in
                                          74
                                                    CCR
            7
                                                    Contractors who were exempt from
                                                    registration




5
  We determined that a contractor was registered by searching the CCR database using either the
full/partial contractor name provided or the Data Universal Numbering System (DUNS), a 9-digit number
assigned by the marketing company Dun & Bradstreet to identify unique business entities.
6
  Government Accountability Office (GAO), Financial Management: Some DOD Contractors Abuse the
Federal Tax System with Little Consequence, GAO-04-95, February 2004.
7
  Contractors are required to complete a one-time registration to provide basic information relevant to
procurement and financial transactions to include contractor name, address, points of contact, electronic
payment information, and TIN. Further, contractors must update or renew their registration annually to
maintain an active status. See 68 Fed. Reg. 56669 (October 1, 2003).
8
  Although OAG later modified the application of CCR requirements for most of these 19 contracts (see
Appendix B), the CCR registration requirements were in place for the 19 contracts during the period
under review.
Page 4 – The Commissioner

New Contractors Not Registered

Between December 2003 and January 2004, SSA awarded contracts to four contractors
totaling about $60,000 without verifying that the contractors were registered in CCR
prior to the award. As of January 2005, three of these contractors still did not appear to
be registered. The one remaining contractor registered approximately 7 months after
SSA awarded it the contract. According to the FAR, if potential contractors are not
registered in CCR “at the time of the award,” contracting officials are to: (1) delay the
award until the contractors are registered or (2) if a delay is not permissible, award the
contracts to the next successful registered offerors.9 We could not determine if SSA
had taken any of these actions for these four contracts. Further, for one of the four
contracts, SSA contracting officials failed to include the CCR registration provisions in
the contract as required under the FAR.10 Consequently, the contractor was not
officially notified about the registration requirement. For the remaining three contracts,
the CCR provisions were included in the contracts.

Existing Contractors Not Registered

We found that 15 existing contractors with awards totaling about $63,000 were not
registered in CCR, although SSA had modified the contracts to include the CCR
provisions. As of January 2004, SSA modified 14 of the 15 contracts to include the
CCR provisions that required the contractors to be registered in CCR by December 31,
2003 and to maintain registration until final payment. They failed to include the CCR
provision in the one remaining contract. We spoke to SSA contracting staff and they
agreed that the 15 contractors did not appear to be registered in CCR, but stated the
FAR does not require them to verify that “existing contractors” have registered. It only
requires them to instruct contractors to register by modifying the contracts with the CCR
provisions.11

EXCLUDED PARTIES LIST SYSTEM

The General Services Administration maintains the Excluded Parties List System
(EPLS), which identifies those parties throughout the U.S. Government that are
debarred or suspended from receiving Federal contracts, certain subcontracts, and
certain types of Federal financial and non-financial assistance and benefits. For
example, a contractor may be debarred for a conviction of or civil judgment for fraud,
embezzlement, theft, forgery, bribery, false statements, or other offenses indicating a
lack of business integrity. Our review of the EPLS as of January 2005 revealed that
none of the 3,097 SSA contractors were included on the list and therefore were eligible
to receive a Government contract.

9
  48 C.F.R. Subpart 4.11—Central Contractor Registration, Section 4.1103—Procedures.
10
   48 C.F.R. Subpart 52.2—Text of Provisions and Clauses, Section 52.204-7—Central Contractor
Registration.
11
   According to 48 C.F.R. Subpart 4.11—Central Contractor Registration, Section 4.1103—Procedures,
contracting officers need not verify registration before placing an order or call, if the contract or agreement
includes the clause.
Page 5 – The Commissioner

TAX IDENTIFICATION NUMBERS

We found that as many as 147 (5 percent) of the 3,097 contractors’ TINs included in the
OAG’s database12 of active contracts were problematic as shown in Table 2. In
addition, SSA was not using the information contained in the CCR database to locate
the appropriate TINs or to make Electronic Fund Transfer (EFT) payments.

The TIN is a 9-digit number required by the IRS to be used by taxpayers in reporting
tax-related information. The TIN may be either an EIN issued by IRS for businesses or
an SSN issued by SSA to individuals. Contractors doing business with a Government
agency are required to furnish their TINs to that agency as it may be used for the
collection of debts owed the Government or reporting of certain contract and payment
information to the IRS.13

Of the 147 TINs, we were unable to verify 95 because they were not included in SSA’s
systems as shown in Table 2. However, we were able to verify the remaining 52 TINs
that contained transposed digits (29), more than 9 digits (19), or unusual numbers (4)
and provided the valid TINs to OAG enabling it to update SSASy.

           Table 2: Discrepancies with Contractors’ Tax Identification Numbers
                                                          Number        Obligated
                        Discrepancies
                                                          of TINs        Amount
      TINs could not be located in SSA’s Employer
                                                                           54           $3,818,000
      Identification File (EIF)1
      TINs were included in the EIF, but the associated name
                                                                          412           $1,062,000
      and address did not match OAG’s database
      TINs with transposed digits                                         293         $15,559,000

      TINs with more than 9 digits                                        193             $429,000
      TINs contained unusual or consecutive numbers
                                                                            43             $91,000
      (e.g. 111222333)
                              Total                                       147         $20,959,000
       Notes:
     1. The EIF database contains the EINs issued by the IRS to employers along with their name and
         address. This file is updated monthly via the IRS Business Master File, which is a magnetic tape
         file containing information about taxpayers filing business returns and related documents.
         According to SSA officials, the EIF and the IRS Business Master File do not always match, which
         may explain why the contractors TINs were not included in the EIF.
     2. We searched the EIF using the contractors’ name, address, and TIN included in OAG’s database.
         However, an entity assigned an EIN can use more than one name. The EIF does not display the
         names of all entities assigned each EIN.14
     3. We provided the corrected TINs to SSA.

12
   SSA's Streamlined Acquisition System (SSASy) is the OAG database used for acquisition planning,
requisitions, awards, and Acquisition Management Information reporting. SSASy includes, but is not
limited to, contractor information such as contractor name, type of contract, type of award, TINs, DUNs,
and amount of obligation.
13
   48 C.F.R Subpart 4.9—Taxpayer Identification Number Information.
14
   SSA’s POMS, GN 00502.118 Verifying EIN.
Page 6 – The Commissioner

Although the OAG could not provide an explanation for most of these discrepancies, it
appears some of these discrepancies occurred because of possible data entry errors
and improper format of the data field used to capture the TINs. We spoke to OAG staff
about the feasibility of modifying the SSASy database to capture only 9 digits for the
contractor TINs and they agreed the modification was feasible and the cost, if any,
would be minimal. Further, we believe these discrepancies may have been avoided if
the TINs were verified using CCR.

Use of CCR to Verify Contractor TINs

Contracting staff could have used the CCR database as a tool to verify whether the
TINs included in SSASy are valid.15 Currently, contracting staff search the public
version of the CCR database to determine if contractors are registered, but this version
does not include contractors’ sensitive and proprietary data such as TINs and banking
information. OAG staff stated that in the future they intend to interface SSASy with the
CCR database, which would provide them with access to all contractor data—public,
sensitive, and proprietary—included in CCR, but they could not tell us when this would
occur.16 However, CCR does provide authorized Government officials read-only access
to all contractor data via the internet. The Government officials need only complete an
application to gain access, which CCR normally grants within 2 business days.

In addition to proper tax reporting, it is critical the OAG capture valid TINs in its
database because TINs are used to determine if individuals or businesses owe a
Federal debt. The OAG database is one of the sources used by OFPO to establish
contractors’ accounts within the Social Security Online Accounting and Reporting
System (SSOARS) and to issue payments.17 OFPO transfers the payment information
(e.g., name, banking information, and TINs) to the Department of Treasury’s Financial
Management Service (FMS), which is responsible for disbursing SSA’s payments.18 As
part of the disbursement process, FMS determines if the individual or business owes a
Federal debt. FMS, which maintains a database of debts owed the Federal
Government, compares the name and TIN on a Federal payment to information in its




15
   GAO noted in a recent report that the IRS is developing a consent based TIN verification system that
will require Federal contractors to validate their name and TINs as a condition of registering in the CCR.
The IRS expects to implement the verification program in 2005. See Financial Management: Thousands
of Civilian Agency Contractors Abuse the Tax System with Little Consequence, GAO-05-637, June 2005.
16
   On August 18, 2005, SSA staff informed us this interface should occur in early Fiscal Year (FY) 2006.
17
   OAG submits to OFPO an electronic file of the award documents that were released and approved.
The file contains contractor data such as banking information as well as the TIN. OFPO enters this data
into SSOARS, which is SSA’s financial management system used to store obligation data, vendor
identification data, and expenditure data in support of payment and general ledger accounting.
18
   FMS is the primary disburser of payments to individuals and businesses on behalf of Federal agencies
(e.g., benefit payments paid by SSA or the Department of Veterans Affairs; and payments to businesses
for goods and services provided to the Federal Government).
Page 7 – The Commissioner

database to determine if a match exists so the debt can be collected.19 The reporting of
invalid TINs could impede debt-collecting efforts by FMS.

Electronic Funds Transfer Data

Currently, OFPO is not using contractors’ EFT information included in the CCR
database to issue electronic payments.20 Federal agencies are encouraged to use the
contractors’ EFT data included in CCR as the single source for making contractor
payments. Within SSA, contractors’ EFT data is normally received by the contracting
office during the solicitation phase of the contracting process and then forwarded to
OFPO who enters the data into SSOARS to establish the obligation and make
payments.21 CCR allows an agency to enter the data electronically into its payment
system, thus eliminating the necessity for any manual intervention and prevent potential
input errors. OFPO personnel stated that CCR data has not been integrated into its
data system due to interface problems. However, they expect to have the issue
resolved by the fourth quarter of 2005.

PAYROLL TAX INFORMATION

Current law does not prevent SSA from awarding contracts to contractors who are tax
delinquent. The FAR appears to allow contracting officers the discretion to consider
tax-related issues when determining whether a potential contractor is responsible.
Specifically, contracting officers must determine if potential contractors have a
satisfactory record of integrity and business ethics, which could involve tax
delinquency.22

To address this issue, GAO recommended the Office of Management and Budget
(OMB) consider mechanisms to prohibit contract awards to contractors who failed to
pay their taxes. In a February 2004 audit report,23 GAO recommended OMB pursue
policy options for prohibiting Federal contract awards to contractors in cases when
abuse to the Federal tax system has occurred and tax owed is not contested. The
report stated that options could include designating such tax abuse as a cause for
governmentwide debarment and suspension or, if allowed by statute, authorizing IRS to
declare such businesses and individuals ineligible for Government contracts. The intent
of this recommendation was to help ensure that the Federal Government does not

19
   Under the Debt Collection Improvement Act of 1996, Pub. L. No. 104-134, the Department of Treasury
created the Treasury Offset Program to centralize the process by which certain Federal payments are
withheld or reduced to collect delinquent nontax debts owed to Federal agencies. See Appendix D for a
flowchart of the process.
20
   As noted in Appendix B, DCFAM issued a class deviation for the CCR requirements, which included
using the CCR database as the source for EFT payment information. EFT data includes the name of the
financial institution, the bank’s routing number, and the company’s account number.
21
   Contractors are also required to include their TINs on invoices submitted for payment.
22
   48 C.F.R Subpart 9.1—Responsible Prospective Contractors.
23
   GAO found that DoD had awarded contracts to over 27,000 contractors, who owed about $3 billion in
unpaid taxes as of September 2002. See Financial Management: Some DOD Contractors Abuse the
Federal Tax System with Little Consequence, GAO-04-95, February 2004.
Page 8 – The Commissioner

award contracts to businesses and individuals that have flagrantly disregarded their
Federal tax obligations (e.g. failed to remit payroll taxes).

We were not able to confirm with the IRS whether the 3,097 contractors were tax
delinquent due to the limitations of Section 6103 of the Internal Revenue Code, which
restricts the disclosure of certain tax-related information.24 To gain a perspective of the
potential problem, we reviewed the results of the SSA/IRS reconciliation process for the
3,097 contractors. This process can identify those employers who under/over-report the
amount of Social Security wages to the IRS, which could result in an underpayment of
payroll taxes.25 Our review found that for Tax Year 2002, 172 (6 percent) of the
3,097 contractors reported Social Security wages to both SSA and IRS that did not
agree. Specifically, 46 contractors reported approximately $23 billion less in Social
Security wages to IRS and 126 contractors reported approximately $353 million less in
Social Security wages to SSA. While SSA and IRS may resolve these wage reporting
discrepancies through the reconciliation process, the discrepancies could indicate
possible tax delinquency. We provide more details about these cases in Appendix E.

CONCLUSION AND RECOMMENDATIONS

Although we found the majority of SSA contractors were adhering to the requirements of
the FAR as it relates to registering in CCR and providing the required tax information to
SSA, we believe improvements are needed to ensure all contractors are compliant.
Also, SSA needs to ensure it is accurately capturing contractors’ information in its data
systems. Although current law does not prevent SSA from awarding contracts to
contractors who are tax delinquent, contracting officers can consider tax-related
information, if available, to determine if potential contractors are responsible.
Furthermore, we support GAO’s recommendation that mechanisms be created to
prohibit contract awards to contractors who failed to pay their taxes.




24
   While citing the Internal Revenue Code, 26 U.S.C. § 6103, IRS stated that their confidentiality statutes
prevent the IRS from making public any records related to finalized tax delinquency cases and do not
allow the disclosure of tax information unless there is an exception to the general rule of non-disclosure.
This same provision specifically allows GAO to have access to this tax information (see 26 U.S.C. § 6103
(i)(8)(A). For example, in a June 2005 GAO audit report, Financial Management: Thousands of Civilian
Agency Contractors Abuse the Tax System with Little Consequence, (GAO-05-637), GAO reported that 1
of 50 sample Federal contractors it reviewed involved a SSA contractor who failed to pay over $400,000
in payroll taxes as of September 2004. Further, the report noted the contractor provided building
maintenance services for SSA and received over $330,000 in payments in FY 2004. GAO noted that the
IRS assessed trust fund penalties against the officers of this company for willfully failing to remit payroll
taxes.
25
   Each year, SSA compares its electronic records of processed Wage and Tax Statement (Form W-2)
wage totals for each employer with IRS records of wage totals that each employer reported on Employer's
Quarterly Federal Tax Return (Form 941), Employer's Quarterly Tax Return for Household Employees
(Form 942) and Employer's Annual Tax Return for Agricultural Employees (Form 943).
Page 9 – The Commissioner

We recommend SSA:

1. Ensure the FAR provision requiring contractors to register with CCR is included in all
   applicable contracts.

2. Ensure contracting officers verify that potential contractors are registered in the CCR
   database.

3. Encourage OAG staff to apply for read-only access to the CCR database provided to
   Government agencies. This access will provide the staff the ability to verify
   contractors’ TIN as well as other contractor information.

4. Reformat OAG’s database to restrict more than 9-digits from being entered as a TIN.

AGENCY COMMENTS

SSA agreed with recommendations 1 and 2, but disagreed with recommendations 3 and
4. In reference to recommendations 3 and 4, SSA stated that effective January 1, 2005,
the process for submitting contractor TIN information changed. Contracting officers will
no longer need to enter the contractors’ TINs into SSASy because contractors can use
a new on-line Representation and Certification program to certify that their TINs are
included in the CCR database. Further, SSA stated that effective with the
implementation of Federal Procurement Data System-Next Generation (FPDS-NG), the
TIN field is no longer a data element and that FPDS-NG verifies whether Government
contractors are registered in CCR. Finally, SSA stated they expect in early FY 2006 to
complete their enhancement of SSASy to retrieve contractor data directly from the CCR
database using the contractor supplied DUNS number. This will be a seamless
connection to CCR through the contract management system, and it will provide access
to all the information necessary to make a proper award. The full text of SSA’s
comments is included in Appendix F.

OIG RESPONSE
We appreciate the Agency's response to our recommendations as well as the
assistance of SSA staff throughout this review. We agree that the new process for
submitting and verifying contractor TINs should prevent the discrepancies noted in the
report from occurring in the future providing SSA is able to obtain direct access to
contractor data included in the CCR database. However, should the interface of SSASy
and CCR be delayed, we believe SSA should consider implementing recommendations
3 and 4 as an interim measure.




                                                S
                                                Patrick P. O’Carroll, Jr.
                                       Appendices
APPENDIX A – Acronyms
APPENDIX B – Central Contractor Registration
APPENDIX C – Scope and Methodology
APPENDIX D – Flowchart of the Social Security Administration’s Procurement Process
APPENDIX E – Payroll Tax Information
APPENDIX F – Agency Comments
APPENDIX G – OIG Contacts and Staff Acknowledgments
                                                             Appendix A

Acronyms
AIE         Integrated Acquisition Environment
CCR         Central Contractor Registration
C.F.R.      Code of Federal Regulations
CO          Contracting Officer
DoD         Department of Defense
DUNS        Data Universal Numbering System
EIF         Employer Identification File
EIN         Employer Identification Number
EPLS        Excluded Parties List System
FAR         Federal Acquisition Regulations
FPDS-NG     Federal Procurement Data System – Next Generation
FICA        Federal Insurance Contributions Act
FMS         Financial Management Service
FY          Fiscal Year
GAO         Government Accountability Office
IRS         Internal Revenue Service
OAG         Office of Acquisition and Grants
OFPO        Office of Financial Policy and Operations
OIG         Office of the Inspector General
OMB         Office of Management and Budget
POMS        Program Operations Manual System
SSA         Social Security Administration
SSASy       SSA's Streamlined Acquisition System
SSN         Social Security Number
SSOARS      Social Security Online Accounting and Reporting System
TIN         Tax Identification Number
U.S.C.      United States Code
Form SS-5   Application for a Social Security Number
                                                                       Appendix B

Central Contractor Registration
In 1998, the Department of Defense (DoD) established the Central Contractor
Registration (CCR) database. The CCR database was created to be the single
repository of contractor data for the entire DoD to avoid administrative duplication and
allow contractors to take responsibility for the accuracy of their own important business
information by supplying it directly to the Government through a single registration. In
the past, any vendor who wanted to do business with more than one DoD site was
required to submit the same business information to each and every site. This
redundancy of paperwork not only created an administrative burden for both the
Government and the vendor, but also was a major source of administrative error and
expense in terms of both time and money.

CONTRACTS COVERED BY CCR
In October 2003, the Federal Acquisition Regulations (FAR) made it a requirement for
all potential contractors doing business with the Federal Government to register in CCR
with the exception of:1
     purchases that use a governmentwide commercial purchase card;
     classified contracts when registration in the CCR database or use of CCR
      information can compromise the safeguarding of classified information or national
      security;
     contracts issued by (1) deployed contracting officers in the course of military
      operations and (2) contracting officers in the conduct of emergency operations, such
      as responses to natural or environmental disasters or national or civil emergencies;
     contracts to support unusual or compelling needs;
     awards made to foreign contractors for work performed outside the United States, if
      it is impractical to obtain CCR registration; and
     micro-purchases that do not use the Electronic Funds Transfer (EFT) method for
      payment and are not required to be reported.

In addition, the FAR required contracting officials to modify existing contracts to
(1) require contractors to register in CCR no later than December 31, 2003 and
(2) inform contractors that the CCR will be the source of EFT account information.

CONTRACTOR REGISTRATION
To register for CCR, contractors are required to complete a 1-time registration to
provide basic information relevant to procurement and financial transactions to include
contractor name, address, points of contact, electronic payment information, and tax
identification number. Further, contractors must update or renew their registration

1
    48 C.F.R. Subpart 4.11—Central Contracting Registration.


                                                   B-1
annually to maintain an active status. CCR validates some contractor’s information and
electronically shares the secure and encrypted data with the Federal agencies’ finance
offices to facilitate paperless payments through EFT. Additionally, CCR shares the data
with Government procurement and electronic business systems. As of March 2005,
there were 355,478 active contractors registered in the CCR database.

SSA CONTRACT DEVIATIONS

In October 2003, the Deputy Commissioner for Finance, Assessment and Management
issued a class deviation that allowed the Agency to deviate from the CCR requirements
in its entirety due to conflicts with the implementation of the Agency’s new financial
accounting/payment system that was mandated by the Federal Financial Management
Act.2 However, the Office of Acquisition and Grants (OAG) later determined that is
needed to implement some of the CCR requirements due to other Federal reporting
requirements. Therefore, it issued a Flash Notice3 in November 2003 that (1) required
all SSA contractors register in CCR unless exempt by FAR, and (2) exempt the
Agency’s use of the CCR database as the source for EFT payments. In February 2004,
OAG reversed its decision about requiring Employee Network (EN)4 contractors to
register in CCR citing that these contracts are exempt from CCR because (1) the
contracts are not required to be reported in the Federal Procurement Data System and
(2) SSA’s Office of Finance does not process the submitted invoices. OAG determined
that the class deviation in its entirety would apply to these types of contracts.




2
  This deviation was issued in accordance to 48 C.F.R. Subpart 1.4 – Deviations from the FAR,
Section 1.404(a)(1) – Class Deviations.
3
  Flash Notice 04:04-02, Central Contractor Registration Implementation Information.
4
  The EN contracts are issued under the Ticket to Work Program, which is the centerpiece of the Ticket to
Work and Work Incentives Improvement Act of 1999, Pub. L. No. 106-170. Under this program, SSA
issues tickets to eligible beneficiaries who, in turn, may assign those tickets to an (EN) contractor of their
choice to obtain employment services, vocational rehabilitation services, or other support services
necessary to achieve a vocational goal. As the contractor produces a service, invoices and payment
information are submitted to the SSA Program Office, who after certifying that it is appropriate, generates
a payment schedule and submits it to the Treasury for payment.


                                                     B-2
                                                                                    Appendix C

Scope and Methodology
To meet our objectives we:
   Reviewed pertinent laws and regulations, as well as prior audits related to the Social
    Security Administration’s (SSA) procurement process and the collecting of payroll
    taxes.
   Interviewed SSA staff to obtain an understanding of the contracting award process.
   Obtained a copy of the Office of Acquisition and Grants (OAG) database of all active
    SSA contracts as of August 2004. This list does not include some micro-purchases
    made by regional contracting officers who are not required to input the purchase
    information into the OAG database.
   Reviewed contract files for sample contractors and compared contractor data to the
    OAG database to determine if the database was reliable.
   Randomly selected 100 contractors to determine if they were registered in the
    Central Contractor Registration database. We started with a contractor population of
    3,124. Additional audit work determined this population contained 27 duplicate
    contractors, adjusting our population to 3,097 contractors. We searched for the
    contractors using their full/partial name and their Data Universal Numbering System,
    which is a 9-digit number, assigned by the marketing company Dun & Bradstreet, to
    identify unique business entities.
   Reviewed the Excluded Parties List System to determine whether the
    3,097 contractors were debarred or suspended from receiving Government
    contracts.
   Reviewed SSA’s Employer Identification File (EIF),1 Social Security Online
    Accounting and Reporting System (SSOARS),2 and Numident3 database to verify
    contractors’ Tax Identification Numbers.
   Obtained from the Office of Earnings, Enumeration, and Administrative Systems a
    listing that included the results of the SSA and IRS reconciliation process for the
    SSA contractors. The data was obtained by using the EINs included in the OAG
    database.

1
  The EIF database contains the Employee Identification Numbers (EIN) issued by the Internal Revenue
Service (IRS) to employers along with their name and address. This file is updated monthly via the IRS
Business Master File, which is a magnetic tape file containing information about taxpayers filing business
returns and related documents.
2
  SSOARS is SSA’s financial management system used to store obligation data, vendor identification
data, and expenditure data in support of payment and general ledger accounting.
3
  The Numident is a record of identifying information (such as name, date of birth, date of death, mother’s
maiden name, etc.) provided by the applicant on his or her Application for a Social Security Number
(Form SS-5) for an original Social Security number (SSN) and subsequent applications for replacement
SSN cards. Each record is housed in the Numident Master File in SSN order.


                                                    C-1
   Sent a letter to IRS requesting confirmation as to whether SSA contractors were
    delinquent in paying their payroll taxes. While citing Internal Revenue Code, 26
    U.S.C. § 6103, the IRS declined our request stating that that their confidentiality
    statutes prevent them from making public any records related to finalized tax
    delinquency cases and do not allow the disclosure of tax information unless there is
    an exception to the general rule of non-disclosure.




                                           C-2
                                                                                     Appendix D

Flowchart of the Social Security
Administration’s Procurement Process
       SSA need arises
              (Note 1)



                           Contracting Officer
                            Solicits bids and
                            awards contracts
                                  (Note 2)


                                                     OFPO
                                             Verifies invoices and
                                             services are rendered
                                                     (Note 3)


                                                                    FMS
                                                            Disburse payments to
                                                                 contractors
                                                                      (Note 4)

1. The Office of Acquisition and Grants (OAG) is responsible for purchases over
   $2,500 originating from a Headquarters office (Baltimore, Maryland; Washington D.C.; and Falls
   Church, Virginia). Regional offices also have their own contracting officers.
2. OAG proceeds with the procurement, which includes verifying available funds, soliciting contractors,
   evaluating proposals, verifying the contractor is responsible and awarding contracts. The contracting
   officer considers factors such as: the financial resources available to the contractor; the contractor’s
   history of integrity and business ethics; and the equipment and facilities that the contractor has at its
   disposal to complete performance under the contract.
3. The Office of Financial Policy and Operations (OFPO) registers, examines, and verifies the invoice as
   being satisfied and issues an invoice certification to the Department of the Treasury’s Financial
   Management Service (FMS). FMS makes payment using the contractor’s bank information provided
   on the invoice certification. FMS also determines if the recipient of payment owes a debt to the
   Government. If there are any contractors with delinquent debts, the payment is offset by FMS.1


1
 Under the Debt Collection Improvement Act of 1996, Pub. L. No. 104-134, the Department of Treasury
created the Treasury Offset Program to centralize the process by which certain Federal payments are
withheld or reduced to collect delinquent non-tax debts owed to Federal agencies.
                                                                                 Appendix E
Payroll Tax Information
Current law does not prevent the Social Security Administration (SSA) from awarding
contracts to contractors who have failed to pay their payroll taxes to the Internal
Revenue Service (IRS). To address this issue, in a February 2004 audit report,1 the
Government Accountability Office (GAO) recommended that the Office of Management
and Budget develop and pursue policy options for prohibiting Federal contract awards to
contractors in cases where abuse of the Federal tax system has occurred and tax owed
is not contested. The report stated that such options could include designating such tax
abuse as a cause for government-wide debarment and suspension or, if allowed by
statute, authorizing IRS to declare such businesses and individuals ineligible for
Government contracts. The intent of this recommendation was to help ensure that the
Federal Government does not award contracts to businesses and individuals that have
flagrantly disregarded their Federal tax obligations (e.g. failed to remit payroll taxes).

We were not able to confirm with the IRS whether SSA contractors had paid their
appropriate payroll taxes2 due to the limitations of section 6103 of the Internal Revenue
Code, which restricts the disclosure of certain tax related information.3 To gain a
perspective of the potential problem, we reviewed the SSA/IRS reconciliation process to
determine whether SSA’s contractors accurately reported the amount of Social Security
wages to both agencies.4 The SSA/IRS process can identify cases where employers
may have under/over-reported the amount of Federal Insurance Contributions Act
(FICA) wages to the IRS, which could result in an under/overpayment of payroll taxes.
Our review found that as of September 2004, 172 (6 percent) of the 3,097 contractors
reported FICA wages to both agencies that did not agree for Tax Year 2002.5
Specifically, we found the following:

•   For 46 contractors, the amount of wages reported to the IRS was less than the
    amount reported to SSA totaling about $23 billion. These cases could represent
1
  GAO found that the Department of Defense (DoD) had awarded contracts to over 27,000 contractors,
who owed about $3 billion in unpaid taxes as of September 2002. See Financial Management: Some
DOD Contractors Abuse the Federal Tax System with Little Consequence, GAO-04-95, February 2004.
2
  In a June 2005 GAO audit report, Financial Management: Thousands of Civilian Agency Contractors
Abuse the Tax System with Little Consequence, (GAO-05-637), GAO reported that 1of 50 sample
Federal contractors it reviewed involved a SSA contractor who failed to pay over $400,000 in payroll
taxes as of September 2004. Further, the report noted the contractor provided building maintenance
services for SSA and received over $330,000 in payments in FY 2004. GAO noted that the IRS assessed
trust fund penalties against the officers of this company for willfully failing to remit payroll taxes.
3
  See 26 U.S.C. § 6103.
4
  Each year, SSA compares its electronic records of processed Wage and Tax Statement (Form W-2)
wage totals for each employer with IRS records of wage totals that each employer reported on Employer's
Quarterly Federal Tax Return (Form 941), Employer's Quarterly Tax Return for Household Employees
(Form 942) and Employer's Annual Tax Return for Agricultural Employees (Form 943).
5
  The 172 cases represent contractors who had at least a $1,000 difference in FICA wages reported to
SSA and IRS.


                                                 E-1
    circumstances where the contractors failed to pay the appropriate amount of FICA
    taxes to the IRS. Again, we were not able to confirm this fact with the IRS due to the
    restrictions of section 6103.6 It is also possible that these cases could represent
    wage reporting errors by the employers. For example, one contractor who
    represented $22 billion (96 percent) of the $23 billion difference in FICA wages
    submitted numerous wage reports to SSA to correct previous submissions.7 The
    latest corrected report was submitted in February 2005, nearly 2 years after it was
    due.8 According to SSA staff, this contractor was referred to IRS because SSA
    considers the contractor to be a high-profile employer who has had wage reporting
    problems in the past.

•   For 126 contractors, the amount of wages reported to the IRS exceeded the amount
    reported to SSA totaling about $353 million. SSA is concerned about these cases
    as they may represent missing W-2s or wage reports, which could affect employees’
    eligibility for receiving Social Security benefits. SSA referred the
    126 contractors to the IRS because the contractors failed to respond to SSA's
    reconciliation correspondence used to help resolve discrepancies or to avoid the
    expiration of the statue of limitation for assessing penalties.9 The IRS can assess
    penalties against employers who fail to cooperate with SSA to resolve the wage
    reporting discrepancies.




6
  While citing the Internal Revenue Code, 26 U.S.C. § 6103, IRS stated that their confidentiality statutes
prevent the IRS from making public any records related to finalized tax delinquency cases and do not
allow the disclosure of tax information unless there is an exception to the general rule of non-disclosure.
This same provision specifically allows GAO to have access to this tax information (see 26 U.S.C.
§ 6103 (i)(8)(A)).
7
  The contractor reported $33 billion in FICA wages to SSA and $11 billion to the IRS.
8
  Employers are required to submit their wage report to SSA in March of the following tax year.
9
  Per SSA’s Program Operations Manual System, RM 02070.001 - SSA/IRS Reconciliation Process, the
Office of Central Records Operations attempts to resolve the reconciliation cases by corresponding with
the employer. Cases where the employer fails to respond to the notices are referred to IRS.


                                                    E-2
                  Appendix F

Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM

                                                                                 34140-24-1259

Date:      September 7, 2005                                                     Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, "Tax Information Related to the Social
           Security Administration’s Contractors" (A-03-05-25010)--INFORMATION

           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report’s
           recommendations are attached.

           Please let me know if you have any questions. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                         F-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL’S (OIG) DRAFT
REPORT, “TAX INFORMATION RELATED TO THE SOCIAL SECURITY
ADMINISTRATION’S CONTRACTORS” (A-03-05-25010)

Thank you for the opportunity to review and provide comments on this draft report. The Agency
supports the President’s Management Agenda in the area of Electronic Government and
specifically in the Integrated Acquisition Environment (IAE) initiative by using various tools and
systems that support IAE, including Central Contractor Registration (CCR) and Federal
Procurement Data System-Next Generation (FPDS-NG). Our effective implementation and use
of these and various other IAE tools allows us to continuously improve our acquisition
operations in headquarters and regional office contracting activities.

Recommendation 1

Ensure the Federal Acquisitions Regulations (FAR) provision requiring contractors to register
with CCR is included in all applicable contracts.

Comment

We agree. We will continue our acquisition management review process which entails steps to
ensure that the CCR provision is included in all applicable contracts along with a random review
of contracts to ensure that proper awards are being made, and that they include all appropriate
clauses. It should be noted that the fact that this review only found 1 contract out of 100 that did
not have the required clause, indicates that this is not a widespread problem.

Recommendation 2

Ensure contracting officers (CO) verify that potential contractors are registered in the CCR
database.

Comment

We agree. We feel this is an important step in evaluating a contract; however, we do not feel
additional procedures are warranted from what is already required by the FAR and the Agency
supplemental guidance. We will send a reminder to the COs reminding them about our current
file documentation requirements that require the CO to indicate that the CCR database was
checked as appropriate and that the contractor is registered. Also, a feature of FPDS-NG serves
as a reminder to the CO that the award should not be made unless the contractor is registered.
FPDS-NG checks the CCR database as the CO is completing the FPDS information. If the
contractor is not registered in CCR, the CO receives a message to that fact, and the award will
not pass the edit process. On the rare occasion that a CO overrides the FPDS-NG message, the
Office of Acquisitions and Grants (OAG) FPDS-NG administrator contacts the CO to remind
him/her to make sure the contractor registers in the CCR database. Sometimes the administrator
contacts the contractor and requests that they complete the registration.




                                                F-2
Recommendation 3

Encourage the OAG staff to apply for read-only access to the CCR database provided to
Government agencies. This access will provide the staff the ability to verify contractors’ Tax
Identification Number (TIN) as well as other contractor information.

Comment

We disagree. Between the time the subject contracts were awarded and this audit was
conducted, the process for submitting TIN information has changed. Prior to
January 1, 2005 contractors submitted their TIN with their Representations and Certifications,
and the CO entered this information in the SSA’s Streamlined Acquisition System vendor file
and in the Contractor TIN field in the “old” FPDS. Effective
January 1, 2005, a new FAR regulation took effect allowing contractors to complete their
Representation and Certifications on-line. Some information required by the Representations
and Certifications is also required by CCR. The TIN is one such piece of information.
Therefore, when a contractor completes its on-line Representations and Certifications, the
contractor does not show the TIN, but cross-refers that information to CCR. With this process,
there is no TIN for the CO to verify, because the contractor has indicated that the TIN in the
CCR is the contractor TIN.

Additionally, effective with the implementation of FPDS-NG, the TIN field is no longer a data
element. COs do not enter this information into the FPDS-NG database. We are not aware of
any other contractor information contained in the non-public CCR record that a CO would need
in order to make a proper award.

In early fiscal year (FY) 2006, we will be enhancing our contract management system to
dynamically retrieve contractor data directly from the CCR database using the contractor
supplied Data Universal Numbering System (DUNS) – a 9 digit number assigned by the
marketing company Dun & Bradstreet to identify unique business entities. This will be a
seamless connection to CCR through the contract management system, and it will provide access
to all of the information necessary to make a proper award.

Recommendation 4

Reformat OAG’s database to restrict more than 9-digits from being entered as a TIN.

Comment

We disagree. As stated in our response to recommendation 3, in early FY 2006 we will be
enhancing our contract management system using the contractor supplied DUNS to retrieve
contractor data directly from the CCR database. The contractor data from the CCR will include
the TIN, and we will no longer be manually entering the TIN.

[In addition to the comments above, SSA provided technical comments which have
been addressed, where appropriate, in this report.]


                                               F-3
                                                                     Appendix G

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Walter Bayer, Director, Philadelphia Audit Division, (215) 597-4080

   Cylinda McCloud-Keal, Audit Manager, (215) 597-0572

Acknowledgments
In addition to those named above:

   Damon Mahoner, Auditor-in-Charge

   Annette DeRito, Writer/Editor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-03-05-25010.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
